<html>
<title> - HOMELAND DEFENSE: SHARING INFORMATION WITH LOCAL LAW ENFORCEMENT</title>
<body><pre>[Senate Hearing 107-719]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-719
 
    HOMELAND DEFENSE: SHARING INFORMATION WITH LOCAL LAW ENFORCEMENT
=======================================================================




                                HEARING

                               before the

        SUBCOMMITTEE ON ADMINISTRATIVE OVERSIGHT AND THE COURTS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 11, 2001

                               __________

                          Serial No. J-107-52

                               __________

         Printed for the use of the Committee on the Judiciary








                       U. S. GOVERNMENT PRINTING OFFICE
82-252                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001












                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ORRIN G. HATCH, Utah
JOSEPH R. BIDEN, Jr., Delaware       STROM THURMOND, South Carolina
HERBERT KOHL, Wisconsin              CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RUSSELL D. FEINGOLD, Wisconsin       JON KYL, Arizona
CHARLES E. SCHUMER, New York         MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
       Bruce A. Cohen, Majority Chief Counsel and Staff Director
                  Sharon Prost, Minority Chief Counsel
                Makan Delrahim, Minority Staff Director
                                 ------                                

        Subcommittee on Administrative Oversight and the Courts

                 CHARLES E. SCHUMER, New York, Chairman
PATRICK J. LEAHY, Vermont            JEFF SESSIONS, Alabama
EDWARD M. KENNEDY, Massachusetts     STROM THURMOND, South Carolina
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
RICHARD J. DURBIN, Illinois          ARLEN SPECTER, Pennsylvania
                Benjamin Lawsky, Majority Chief Counsel
                    Ed Haden, Minority Chief Counsel













                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa.    27
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......    28
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.    29
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York...........................................................     1
Thurmond, Hon. Strom, a U.S. Senator from the State of South 
  Carolina.......................................................    30

                               WITNESSES

Canterbury, Chuck, National Vice President, Fraternal Order of 
  Police, Myrtle Beach, South Carolina...........................    10
Greiner, Jon, President, Utah Chief of Police Association, Ogden, 
  Utah...........................................................    14
Kerik, Bernard B., Police Commissioner, New York, New York.......     4
O'Malley, Hon. Martin, Mayor, Baltimore, Maryland................     6















    HOMELAND DEFENSE: SHARING INFORMATION WITH LOCAL LAW ENFORCEMENT

                              ----------                              


                       TUESDAY, DECEMBER 11, 2001

                               U.S. Senate,
                     Subcommittee on Administrative
                                  Oversight and the Courts,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:14 a.m., in 
Room SD-224, Dirksen Senate Office Building, Hon. Charles E. 
Schumer [Chairman of the Subcommittee] presiding.
    Present: Senator Schumer.

 OPENING STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Chairman Schumer. The hearing will come to order and let me 
apologize to the witnesses. We had votes going on. These are 
the vicissitudes of life on the Hill. I thank all of you for 
coming. Senator Sessions is expected shortly but he has given 
us the okay, the green light to proceed.
    We are here this morning to discuss one of the most serious 
problems undermining public safety today and that is the lack 
of communication between federal and local law enforcement. One 
of the worst kept secrets in law enforcement is the chronic 
lack of communication between federal and local authorities. 
The problem was never clearer and never more threatening than 
when anthrax was discovered at the NBC studios in New York 
City. The FBI knew about it for days but they failed to alert 
the New York Police Department. And it is quite possible that 
because of that lack of communication steps that could have 
been taken to protect the public were not. It is possible that 
countless New Yorkers were unnecessarily put at risk simply 
because the law and culture makes information-sharing taboo. 
That is a risk none of us should ever be forced to take.
    Most experts point to two primary reasons for this gaping 
failure in communication. First, there are legal and procedural 
obstacles to sharing certain information. Second, some say that 
the culture within federal law enforcement discourages 
cooperation with local officials. Neither of these reasons is 
acceptable. More importantly, both are eminently fixable. 
Whatever the problems may be, they are getting in the way of 
protecting the public. If the past few months has taught us 
anything it is that any delay in patching holes in our security 
network is unacceptable.
    So last month Senator Clinton, Chairman Leahy and Senator 
Hatch and I introduced legislation to help solve these 
problems. Our bill reduces many of the practical barriers to 
information-sharing. Just like other aspects of American 
culture have changed since September 11, this law enforcement 
culture needs to change, as well. Our bill gives that culture a 
push in the right direction.
    We recently passed an anti-terrorism bill that carefully 
balanced the need for information-sharing among federal 
agencies with the need to protect privacy rights and other 
civil rights of individuals under investigation. Our proposal 
builds on both the powers and protections in the anti-terrorism 
bill. The act permits but does not require the federal 
government to share information. In short, where information 
can be shared among federal agencies, under our bill it could 
be shared with local law enforcement. So if the FBI could alert 
the CDC to an anthrax outbreak it could, at the same time, tell 
the NYPD, as well.
    At the same time, our bill subjects local law enforcement 
officials who receive this information to the same privacy 
protections that cover law enforcement. So if circumstances 
dictate that the CDC cannot talk to anyone else about an 
outbreak, neither could the NYPD. We are not changing the rules 
themselves; we are simply making long-overdue changes to the 
process.
    Our bill also directs the administration to promulgate 
regulations to guarantee the security of this information. In 
protecting the public, we are protecting privacy, as well.
    This proposal forges a new and open trail for communication 
regarding threats that federal authorities learn about, whether 
through grand juries, wiretaps, or foreign intelligence-
gathering operations. It would be absurd, especially in this 
new world, for a witness to tell a federal grand jury about an 
anthrax threat or for a wiretap to pick up information about a 
planned car bombing but to restrict the federal government's 
power to immediately give a heads-up to the appropriate local 
authorities, yet that is what exactly happens now.
    This is especially problematic in an era when state and 
local budgets are already stretched to the breaking point. They 
simply cannot afford to provide round-the-clock heightened 
security on the bridges and roadways, at the power plants and 
all the other vulnerable sectors. Local law enforcement needs 
to know when there is a specific threat so they can target 
resources appropriately and effectively. Too many times local 
officials learn of security threats by watching the news 
accounts instead of getting the warning directly from the 
federal government and that is unacceptable.
    We live in a world where we need to use every weapon in our 
arsenal to protect the public. Rules and a culture that limit 
information-sharing simply do not make sense. With the holiday 
travel season, New Year's Eve celebrations, the Superbowl and 
the Winter Olympics all on the horizon, now more than ever our 
safety and security depend on maximizing the utility of our 
resources.
    This is no time for squabbling. It is no time to protect 
turf. It is time for everyone in law enforcement to come 
together. That means getting federal, state and local law 
enforcement all onto the same page.
    When we remove legal barriers we are also giving an impetus 
to changing the culture. In the past when federal officials did 
not want to share information they said well, I cannot because 
of this or that law and you are not going to get a court suit 
to debate whether that information can be shared. Now, once 
this legislation passes, there will be no excuse about the 
failure to share information. We are not requiring the sharing. 
There may be some instances where the federal government says 
that they cannot for a variety of reasons but, at the same 
time, we are eliminating any kind of legal excuse to the 
necessity to share information.
    Now we all know that there is no question that knowledge is 
power. The more broadly we share information and intelligence 
among our federal, state and local law enforcement officials, 
the better chance we have of preventing future attacks on 
American soil and that is what this hearing is about and what 
our legislation tries to accomplish.
    President Bush recognizes the importance of local law 
enforcement in our national security efforts. The 
administration has directed all 94 U.S. attorneys to create 
anti-terrorism task forces that include representatives from 
local law enforcement. That is a good start but it is not 
enough.
    The administration recognizes the need for more 
information-sharing and they support the objectives of our 
bill. It is bipartisan, both the Chairman and ranking 
Republican member of the Committee are sponsors, and we hope to 
move this legislation quickly. That is why we are having this 
hearing now. Administration officials have also assured me that 
they are with us in this battle. We hope to have this 
bipartisan legislation passed early next year to remedy the 
problems our witnesses here today will be discussing and I want 
to thank them all for coming.
    Now we are going to turn to the witnesses. I will introduce 
each first, let them speak, and then introduce the next.
    Our first witness is Bernard B. Kerik. I am very proud to 
introduce him. Since September 11 Bernie has become well known 
beyond our home city of New York. He has shown valor and 
heroism in helping lead the city in his role as commissioner of 
the NYPD, a post he has held since August of 2000. But he had a 
very distinguished career even before September 11 and those of 
us who knew him were proud of him even before then. Prior to 
his appointment Commissioner Kerik served as commissioner and 
first deputy commissioner of the Department of Corrections, 
where he did a great job straightening that department out. He 
served on the front lines, as well as in administrative posts. 
After being selected for the U.S. Department of Justice's Drug 
Enforcement Task Force he helped direct one of the most 
substantial narcotics investigations in the history of the 
office, which resulted in the conviction of more than 60 
members of the Cali Cartel. Commissioner Kerik currently serves 
on the Terrorism Committee of the International Association of 
Chiefs of Police.
    Commissioner, we are delighted you are here. Everyone, not 
only all New Yorkers but all Americans are proud of you. Your 
entire statement will be read into the record.

 STATEMENT OF BERNARD B. KERIK, POLICE COMMISSIONER, NEW YORK, 
                            NEW YORK

    Mr. Kerik. Thank you. Good morning, Mr. Chairman, Senator 
Sessions and members of the Subcommittee. On behalf of Mayor 
Rudolph Guiliani and the people of the city of New York I would 
first like to thank you, Mr. Chairman, for your sustained 
effort on behalf of the people of New York City in helping us 
recover from the unthinkable tragedy of September 11.
    I would also like to thank you, as well as Senators 
Clinton, Leahy and Hatch, for your support in introducing 
Senate Bill Number 1615, the Federal Local Information Sharing 
Partnership Act of 2001, which addresses roadblocks to 
information-sharing between federal authorities and state and 
local law enforcement.
    We are gratified that in holding this hearing you are 
informing the public of a critical gap in the nation's ability 
to defend itself against terrorism, which makes enactment of S. 
1615 a crucial element of homeland defense. Congressman Weiner 
of New York, along with several cosponsors, introduced a 
companion bill in the House of Representatives, H.R. 3285, and 
we look forward to its swift passage, as well.
    Oftentimes federal law enforcement officials may have vital 
information regarding public safety but are concerned that 
sharing that information with states and localities would be at 
odds with the federal law. Public safety demands that it must 
be absolutely clear that there are no statutory barriers to 
sharing this type of information with state and local law 
enforcement authorities. This essential legislation is a 
powerful step in that direction.
    Information in the bill that would be clearly shareable 
includes foreign intelligence information, electronic wiretap 
information, and certain grand jury information. Under the 
recently passed USA PATRIOT Act, all of this information may 
only be shared between federal law enforcement and intelligence 
agencies. Senate Bill Number 1615 will clearly permit this 
information to be shared with state and local authorities that 
are the front-line defense in the war against terrorism.
    The fact that over 600,000 members of state and local 
police forces are not clearly enlisted as partners in the 
effort to locate and apprehend terrorists must be addressed. 
Senate Bill Number 1615 amends the USA PATRIOT Act to make it 
absolutely clear that the sharing of information with state and 
local law enforcement is appropriate. The suggested amendments 
do not mandate the sharing of information but leave with the 
federal authorities the discretion as to what information to 
disseminate. The discretion will still remain with the federal 
agency in possession of the information. The bill also includes 
a direction to the attorney general to promulgate appropriate 
confidentiality guidelines for the use of the information, with 
which state and local officials must comply.
    Our nation is facing the greatest challenge of this 
generation in its war on terrorism and every element of our 
national defense must be utilized in the fight. Local police 
forces are on the front line and are uniquely situated to 
gather information which, when coupled with federal 
intelligence, can not only solve cases but much more 
importantly, prevent attacks from occurring. Continuing to 
maintain walls between federal and state authorities with 
respect to the sharing of real-time information represents the 
worst kind of dysfunctional thinking in government and must be 
addressed as quickly as possible.
    Unless state and local jurisdictions are clearly included 
in appropriate information-sharing, federal authorities will 
remain hamstrung in their dealings with their local partners. 
In addition, local jurisdictions will remain uninformed and 
unprepared in the face of mounting terrorist threats and the 
nation will be unable to take full advantage of the information 
and assistance that 600,000 police officers across the country 
can provide.
    Again I would like to thank you, Mr. Chairman and Senator 
Sessions, for your leadership and support in focussing the 
nation's attention on the critical need to coordinate federal, 
state and local resources to protect the people of the United 
States. I will be pleased to answer any questions you may have.
    [The prepared statement of Commissioner Kerik follows.]

    Statement of Bernard B. Kerik, New York City Police Commissioner

    Good morning, Mr. Chairman, Senator Sessions, and members of the 
Subcommittee.
    On behalf of Mayor Rudolph Giuliani and the people of New York 
City, I would first like to thank you, Mr. Chairman, for your sustained 
effort on behalf of the people of New York City, in helping us to 
recover from the unthinkable tragedy of September 11th.
    I would also like to thank you, as well as Senators Clinton, Leahy 
and Hatch, for your support in introducing Senate Bill No. 1615, the 
``Federal-Local Information Sharing Partnership Act of 2001,'' which 
addresses roadblocks to information sharing between federal authorities 
and state and local law enforcement.
    We are gratified that in holding this hearing, you are informing 
the public of a critical gap in the nation's ability to defend itself 
against terrorism, which makes enactment of S. 1615 a crucial element 
of homeland defense. Congressman Weiner of New York, along with several 
cosponsors, introduced a companion bill in the House of 
.Representatives, H.R. 3285, and we look forward to its swift passage 
as well.
    Often times, federal law enforcement officials may have vital 
information regarding public safety, but are concerned that sharing 
that information with states and localities would be at odds with 
federal law. Public safety demands that it must be absolutely clear 
that there are no statutory barriers to sharing this type of 
information with state and local law enforcement authorities. This 
essential legislation is a powerful step in that direction.
    Information in the bill that would be clearly shareable includes 
foreign intelligence information, electronic wiretap information, and 
certain grand jury information. Under the recently passed USA PATRIOT 
Act, all of this information may be shared between federal law 
enforcement and intelligence agencies. Senate Bill No. 1615 will 
clearly permit this information to be shared with state and local 
authorities that are the front line defense in the war against 
terrorism.
    The fact that over 600,000 members of state and local police forces 
are not clearly enlisted as partners in the effort to locate and 
apprehend suspected terrorists must be addressed. Senate Bill No. 1615 
amends the USA PATRIOT Act to make it absolutely clear that the sharing 
of information with state and local law enforcement is appropriate. The 
suggested amendments do not mandate the sharing of information, but 
leave with the federal authorities the discretion as to what 
information to disseminate. The discretion will still remain with the 
federal agency in possession of the information. The bill also includes 
a direction to the Attorney General to promulgate appropriate 
confidentiality guidelines for the use of the information, with which 
state and local officials must comply.
    Our nation is facing the greatest challenge of this generation in 
its war on terrorism, and every element of national defense must be 
utilized in the fight. Local police forces are on the front line, and 
are uniquely situated to gather information which, when coupled with 
federal intelligence, can not only solve cases but, much more 
important, prevent attacks from occurring. Continuing to maintain walls 
between federal and state authorities
    with respect to the sharing of ``real time'' information represents 
the worst kind of dysfunctional thinking in government, and must be 
addressed as quickly as possible.
    Unless state and local jurisdictions are clearly included in 
appropriate information
    1
    sharing, federal authorities will remain hamstrung in their 
dealings with their local partners. In addition, local jurisdictions 
will remain uninformed and unprepared in the face of mounting terrorist 
threats, and the nation will be unable to take full advantage of the 
information and assistance that 600,000 police officers across the 
country can provide.
    Again, I would like to thank you, Mr. Chairman and Senator 
Sessions, for your leadership and support in focusing the nation's 
attention on the critical need to coordinate federal, state, and local 
resources to protect the people of the United States.
    I will be pleased to answer any questions you may have.

    Chairman Schumer. Thank you, Mr. Commissioner.
    Our next witness, equally distinguished, is Martin 
O'Malley. He was elected to office in November of 1999 as the 
youngest mayor in Baltimore's history. Prior to his election 
Mayor O'Malley served on the Baltimore City Council from 1991 
to 1999 and as an assistant state's attorney for the city of 
Baltimore from 1988 to 1990 so he has prosecutorial experience, 
as well.
    Mayor O'Malley is a graduate of Catholic University, the 
University of Maryland Law School, and he has been a vocal 
proponent, one of the leading proponents, along with the 
commissioner, of greater information-sharing between federal 
and local law enforcement.
    Mr. Mayor, we are very pleased to have you here today and 
grateful you took out time from your busy schedule. Your entire 
statement will be read into the record and you may proceed as 
you wish.

 STATEMENT OF HON. MARTIN O'MALLEY, MAYOR, BALTIMORE, MARYLAND

    Mayor O'Malley. Thank you very much, Senator. Mr. Chairman, 
I also want to thank the members of this Committee and your 
cosponsors. I am honored to join you today and lend my voice to 
the support of Senate Bill 1615, the Federal Local Information 
Sharing Partnership Act of 2001. I want to thank Senators 
Leahy, Hatch and yourself and Senator Clinton for hearing the 
voices of America's police chiefs and on behalf of the 
Conference of Mayors I want to thank you for listening to what 
the mayors of this country have had to say, as well.
    S. 1615 addresses a very dangerous gap created by the USA 
PATRIOT Act by affirmatively allowing federal authorities to 
share grand jury, wiretap, foreign intelligence operations and 
confidential banking and educational records with local police.
    It has become almost a cliche to say that this war is being 
fought on two fronts but it is being fought on two fronts. 
Uniquely for the first time since 1812 one of those fronts is 
right here on American soil. Were this war being fought on two 
foreign fronts I have no doubt that we would be rapidly rushing 
resources to both of those foreign fronts, that we would 
rapidly be rushing equipment, training and, most importantly, 
intelligence to both of those fronts.
    Unfortunately, we have yet to catch up with this new 
reality that we are facing. We have nothing resembling rapid 
intelligence being rushed to our front.
    On the intelligence front we must use every resource at our 
disposal--federal, state and local--to keep America's citizens 
safe. Through this bill you are right to affirmatively allow 
the FBI to share information with the hundreds of thousands of 
local law enforcement officers across the nation.
    No one wants to appear critical of the FBI or any other 
state or local or federal agency, particularly in the midst of 
this challenge. Local governments though and local law 
enforcement can help, want to help, must help out of patriotism 
and for the safety of our citizens but we must improve our 
coordination and our information-sharing.
    Let me say that since we first raised this issue back in 
October FBI Director Mueller and Attorney General Ashcroft have 
taken some concrete steps to better enlist local law 
enforcement officers in this war against terrorism. The FBI's 
terrorist watch list has now been added, so I am told, to the 
NCIC database and just last week the INS announced it would 
place the names of 314,000 foreign nationals who disappeared 
after being ordered deported into NCIC, as well.
    Notwithstanding that progress, we still are not where we 
need to be. Although more people agree that there is no other 
reasonable course but to enlist, deputize, recruit local law 
enforcement into this effort, here are a couple of concrete 
examples why it has to happen. It is just a simple matter of 
math. There are 7,000 FBI agents assigned to this task before 
us. There are 650,000 local law enforcement agents. It is 
physically impossible for all tips or even most tips to be 
pursued by a mere 7,000 federal law enforcement officers.
    Until recently this gap, this dangerous gap, this problem 
was exacerbated by a tip line where calls that would more 
appropriately have warranted a 911 response by a patrol officer 
instead went directly to a centralized number somewhere and we 
would hope that there was follow-up on those but I seriously 
doubt it. In Baltimore a local utility company called that 
national tip line to report a suspicious truck parked outside 
of one of its facilities. Now the police department, which 
could have been there within minutes and responds in minutes 
day in, day out, 24/7 to such calls, never received this 
information. We found out about it when a utility executive 
told our police commissioner the story at a social event. We 
assume the FBI checked into the truck but we are not sure. And 
given the magnitude of the calls, I seriously doubt it.
    Providing security clearance to police chiefs and 
intelligence units in big-city police departments would also 
allow local law enforcement to do its share in protecting our 
nation. Sharing information would better enable police 
departments to protect cities not only against coordinated 
attacks but against sort of the lone actors who, on their own 
volition, may decide to join the jihad.
    In Baltimore, for example, we arrested a young man of 
Iranian heritage walking out of the end of the Howard Street 
train tunnel which runs under our city, where he had had a 
train derailment this past summer. He was wearing a mask, 
carrying a backpack, and had cameras.
    Even as it becomes more obvious that we have to cooperate, 
we are falling short. We are falling short on coordination 
among the various levels of government and between federal 
agencies. For example, had one of the terrorists responsible 
for flying the plane full of innocent people into a building on 
September 11 been pulled over, had he been pulled over by a 
Maryland state trooper two days before that attack, the CIA 
would have had him on a watch list, the FBI would not, and no 
information would have been relayed to that state trooper so he 
could have held that person and possibly thwarted that attack.
    A state trooper who would have made that traffic stop would 
not have known that he was wanted by the FBI or that he was a 
threat to American citizens. He would have known if he had not 
paid his insurance in Maryland. He would have known if he had 
let a speeding ticket go unpaid or did not show up for court. 
He would have known if he had failed to pay his parking ticket 
in the city of Baltimore.
    The 230 names now on the watch list have been added to NCIC 
but there are no pictures and in all likelihood many of these 
men are probably not using their real names. Pictures are 
critical to catching them. And assuming they did not go to the 
Osama bin Laden school of perfect driving, some of them will 
slip up. Some of them will be contacted by local law 
enforcement, just as indeed Timony McVeigh was first stopped 
for a traffic violation.
    Most recently we have some additional coordination issues. 
We read in the news report that the FBI would like local law 
enforcement's help in questioning about 5,000 students who have 
violated their visas yet our police commissioners has heard 
nothing about these individuals. His 3,200 police officers are 
not yet helping. We have been told by our U.S. attorney's 
office that we have at least 12 such people in our city. We 
were told that a week or 10 days ago. We know their names but 
the police have not been able to interview them, we are told, 
because we are waiting for the Department of Justice and the 
U.S. Attorney's Office to set up a process. A process for what? 
We have 70 people solely dedicated to serving fugitive warrants 
in our city day in and day out. If we had been told 10 days ago 
to look for these 12 individuals I have no doubt that we would 
have found a great number of them by now.
    In times of crisis government does not have the luxury of 
acting like a big bureaucracy. A few months might not be soon 
enough to safeguard American lives. Local government has a lot 
of skilled, trained people who could be helping federal law 
enforcement officers protect our citizens if only they had the 
information to help them accomplish this job, this job which 
all American law enforcement agencies must rise to.
    The USA PATRIOT Act of 2001 provides for sharing of 
intelligence between federal agencies. Now it is time to ensure 
the same level of cooperation between local and federal law 
enforcement. There is no time for us to say we will get to it 
as soon as we set up a process.
    [The prepared statement of Mayor O'Malley follows:]

   Statement of Baltimore Mayor Martin O'Malley, Baltimore, Maryland

    I am honored to join you today to support S. 1615, the ``Federal-
Local Information Sharing Partnership Act of 2001.''
    But more importantly, I want to thank you--Chairman Leahy, Senator 
Hatch, Senator Schumer and Senator Clinton--for hearing the voices of 
America's police chiefs, including Baltimore's Commissioner Edward 
Norris and NYPD Commissioner Bernard Kerik. Additionally, I would like 
to thank you on behalf of the U.S. Conference of Mayors, for which I 
Co-Chair the Federal-Local Law Enforcement Task Force.
    While the recently passed USA Patriot Act mandates that federal 
agencies share information, it failed to allow the same communication 
exchange with state and local police.
    S. 1615 will address the gap in the USA Patriot Act by permitting, 
but not requiring, federal authorities to share grand jury, wiretap, 
foreign intelligence operations and confidential banking and 
educational records with state and local police.
    This bill provides Congress with the mechanism to ensure that such 
information is shared with our country's first responders, the 645,000 
local law enforcement officers.
    The United States is fighting a war on two fronts--Afghanistan and 
right here in America's big cities. If those fronts were Japan and 
Germany, as they were in World War II, we would have the best 
technology, the best equipment, and the best intelligence being sent 
right to both fronts.
    But, only one front in this war is overseas where we have, as we 
should, equipped our men and women with the best technology, equipment 
and intelligence.
    The other theater is right here at home in America's big cities. 
And to date, it's where we've seen the greatest loss of life. Yet, we 
have insufficient equipment, too little training, and a lack of 
intelligence sharing with federal authorities.
    With war hitting home, we must use every resource at our disposal--
federal, state and local--to keep Americans safe. We owe it to the 
American people. Through S. 1615, you are right to call on the Federal 
Bureau of Investigations to better share information with the hundreds 
of thousands of local law enforcement officers across this nation.
    Nobody wants to criticize the FBI--particularly during a war. But 
when Commissioner Norris, a former Deputy Commissioner with the NYPD, 
explained what was happening in the wake of September 11<SUP>th</SUP> 
it seemed irresponsible to remain silent. Local governments want to 
help--out of patriotism, but also because we want to make sure our 
people are safe.
    First, let me say that since we first raised this issue in early 
October, FBI Director Mueller and Attorney General Ashcroft have taken 
concrete steps to enlist local law enforcement officers in the war 
against terrorism.
    The FBI's terrorist watch list has been added to the National Crime 
Information Center database. And just last week, the Immigration and 
Naturalization Service announced it would place the names of 314,000 
foreign nationals, who disappeared after being ordered deported, into 
the NCIC.
    However, notwithstanding this progress, after three months, we are 
not where we should be. Although most people agree that there is no 
other reasonable course but to deputize local law enforcement, how that 
occurs is still sketchy.
    Here's one reason it must happen--it's a simple matter of math. 
With more than a half million open tips and 7,000 FBI agents working on 
this case, it is physically impossible that all tips--or even most tips 
are being pursued in any meaningful way. Until recently, this problem 
was exacerbated by the creation of an FBI tip line, bypassing local law 
enforcement.
    The tip line has since been discontinued. But while it was in 
existence, thousands of calls bypassed local 911 lines, going directly 
to the FBI without any tracking or reference to local officials.
    In Baltimore, a local utility called the tip line to report a 
suspicious truck parked outside of one of its facilities. The Police 
Department, which could have been there within minutes, never received 
this information. We found out about it when a utility executive told 
Commissioner Norris the story at a social event. We assume the FBI 
checked into the truck, but we're not sure.
    Providing security clearance to Police Chiefs and intelligence 
units in big city police departments would allow local law enforcement 
to do its share in protecting our nation--four of the terrorists who 
crashed into the Pentagon lived in Laurel, between Baltimore and 
Washington.
    Sharing information also would better enable police departments to 
protect cities against independent kooks, who decide to join the Jihad. 
In Baltimore, we arrested a young man of Iranian heritage, walking out 
of the Howard Street tunnel--where we had a train derailment this past 
summer--wearing a mask, and carrying a backpack and cameras.
    Even as it becomes evermore obvious that we must cooperate, we are 
falling short on coordination amongst the various levels of government 
and between federal agencies. For instance, one of the terrorists that 
flew a plane full of innocent people into a building filled with 
innocent people was pulled over by a Maryland State Trooper before 
September 11<SUP>th</SUP>. The CIA had him on a watch list. The FBI 
didn't. And no information was shared with state or local law 
enforcement.
    The State trooper who pulled this driver over would have known he 
was wanted if he had an outstanding speeding ticket in the State of 
Maryland. He would have known if his insurance was expired. But he had 
no way of knowing that he had just pulled over an international 
terrorist.
    Now, the 230 names on the FBI watch list have been added to the 
NCIC, but there are no pictures. In all likelihood, these men are not 
using their real names. Pictures are critical to catching them. And 
unless they went to the Osama bin Laden school of perfect driving, some 
of them will slip up. Local law enforcement has a very good chance of 
catching them on traffic charges -just like Timothy McVeigh.
    More recently, we have an additional coordination issue. We have 
read in news reports that the FBI would like local law enforcement's 
help in questioning about 5,000 students who are violating their visas. 
Yet, our Police Commissioner has heard nothing. His 3,200 police 
officers are not yet helping.
    Through our local network, we have determined that we have at least 
12 such people in our city. We know who and where they are. But the 
police cannot interview them, we are told, because we are waiting for 
the Department of Justice and the US Attorney to set up a process--for 
them to tell us about the guys we already know about.
    In times of crisis, government doesn't have the luxury of acting 
like government. A few months might not be soon enough to safeguard 
American lives. We need to move more quickly.
    I'm not saying local government has all the answers. But we do have 
a lot of skilled, trained people who could be helping federal law 
enforcement officers do their job--if only they had the information 
that would enable them to help.
    The USA Patriot Act of 2001 provided for sharing of intelligence 
between federal agencies. Now it's time to ensure the same level of 
cooperation between local and federal law enforcement. There is no time 
for us to say we'll get to it.

    Chairman Schumer. Thank you, Mr. Mayor.
    Our next witness is Chuck Canterbury. Chuck currently 
serves as the national vice president for the Fraternal Order 
of Police. He is a 23-year police veteran officer on active 
duty with the Horry County, South Carolina Police Department 
where he holds the rank of major and is in charge of the 
operations bureau of the department.
    As most know, the FOP is the nation's preeminent 
association representing interests of local law enforcement 
with 300,000 sworn law enforcement officers as members. Their 
views on this issue are invaluable and we are very pleased, 
Major Canterbury, that you were able to join us today. Your 
entire statement will be read into the record. Proceed as you 
wish.

    STATEMENT OF CHUCK CANTERBURY, NATIONAL VICE PRESIDENT, 
    FRATERNAL ORDER OF POLICE, MYRTLE BEACH, SOUTH CAROLINA

    Mr. Canterbury. Thank you, Senator Schumer.
    Good morning, Mr. Chairman and members of the Subcommittee. 
My name is Chuck Canterbury and I am the national vice 
president of the Fraternal Order of Police. I am here today on 
behalf of our national president, Steve Young, to offer 
testimony in support of enhanced information-sharing between 
federal law enforcement and those of us at the state and local 
level.
    As you have already stated, in addition to being the 
national vice president, I am also a major with the Horry 
County Police Department in South Carolina. As a police 
executive I recognize the benefits of receiving broad and 
timely access to information regarding threats to our 
communities but more importantly, I recognize the absolute 
necessity of providing the same information to the rank and 
file officers under our command.
    Since the tragic events of 11 September, our nation has 
moved rapidly to hunt down and neutralize terrorists both at 
home and abroad and to strengthen our sense of security, which 
was assaulted on that fateful day. And, like our military 
personnel overseas, America's federal, state and local law 
enforcement officers have done a tremendous job over the last 
three months under difficult circumstances in protecting our 
nation from future threats of violence.
    A necessary component of these efforts has been timely 
access to specific intelligence and other information regarding 
threats to our national security. As our first line of defense 
in cities big and small, law enforcement officers across the 
country have used the information at their disposal to move 
quickly to clamp down on those whose only goal is to inflict as 
much damage to as many people as possible. Both before and 
since September 11, many existing systems have been utilized to 
share intelligence and coordinate efforts against terrorist 
networks. Among these are the Regional Information Sharing 
System and the NCIC, to which the FBI has recently added the 
terrorist watch list. However, several barriers still remain 
which restrict the flow of other much-needed information from 
federal agencies to law enforcement at the state and local 
level and the types of information that is permissible to 
share.
    As you know, broad and timely access the information and 
intelligence is the linchpin in the fight against terrorism. 
With 96 percent of the law enforcement officers in the United 
States employed by state and local governments, it is critical 
that these agencies be kept in the loop by their federal 
counterparts.
    In the past it has often been a one-way street with state 
and local law enforcement providing information to their 
federal colleagues and getting very little information in 
return. We all have the same job to do but without the same 
information about threats, our response is inadequate.
    The importance of removing barriers to the free flow and 
exchange of information is an issue which has been highlighted 
by both Congress and the administration. Following September 
11, many of us in state and local law enforcement expressed our 
frustration with the lack of information flowing down from the 
federal agencies and from the FBI in particular. National 
President Young and our executive director Jim Pasco have had 
comprehensive discussions with Homeland Security Director Tom 
Ridge, Attorney General Ashcroft, and FBI Director Robert 
Mueller and with other administrative officials on this issue. 
All have recognized the importance of providing law enforcement 
at the state and local level with access to as much information 
as possible and General Ashcroft and Director Mueller in 
particular are to be commended for their efforts in attempting 
to improve the sharing of the information with nonfederal 
agencies. However, they can only provide as much information as 
the current law will allow.
    It is for this reason that efforts were made by the 
Fraternal Order of Police, in close cooperation with officials 
of the New York City Police Department, to include language on 
this issue as part of H.R. 3162, the USA PATRIOT Act. While 
this effort was ultimately unsuccessful, we are grateful, Mr. 
Chairman, that you have introduced legislation which will 
continue the dialogue as to not only how information is shared 
in the future but the type of information that can be provided 
to state and local law enforcement.
    Our state and local officers are the first line of defense 
against threats to our nation. They are the first responders. 
And because they represent the overwhelming majority of law 
enforcement in this country, they can be a valuable asset in 
the fight to improve homeland security but only if a free and 
uninterrupted flow of information is allowed to exist among law 
enforcement agencies at every level of government. In our 
future struggles against terrorism all law enforcement agencies 
will require access to the most up-to-date and comprehensive 
information available and this is why it will be demanded by 
those that we are sworn to protect and serve.
    In conclusion, Mr. Chairman, let me thank you on behalf of 
the membership of the Fraternal Order of Police for holding 
this hearing and affording us the opportunity to testify here 
today. We look forward to working with you, the members of this 
Subcommittee, and other interested parties on how to best 
address this issue and I would be pleased to stand for any 
questions.
    [The prepared statement of Mr. Canterbury follows:]

 Statement of Chuck Canterbury, National Vice President, Grand Lodge, 
                       Fraternal Order of Police

    Good morning Mr. Chairman, Senator Sessions, and Members of the 
Subcommittee. My name is Chuck Canterbury and I am the National Vice 
President of the Grand Lodge, Fraternal Order of Police. With over 
299,000 members, the F.O.P. is the largest law enforcement labor 
organization in the United States. I am here today on behalf of 
National President Steve Young and the membership of our organization 
to offer testimony in support of enhanced information sharing between 
Federal law enforcement and those of us at the State and local level. 
In addition to serving as the National Vice President of the Fraternal 
Order of Police, I am also a Major with the Horny County, South 
Carolina Police Department and a twenty-three year law enforcement 
veteran. As a police executive, I recognize the benefits of receiving 
broad and timely access to information regarding threats to our 
communities. But more importantly, I recognize the absolute necessity 
of providing rank and file officers under my command.
    Since the tragic and heinous events of 11 September, our nation has 
moved rapidly to hunt down and neutralize terrorists both at home and 
abroad, and to strengthen our sense of security which was mercilessly 
assaulted on that fateful day. Our nation is now at war against an 
oftentimes unseen enemy. It is a war that will not be fought solely in 
a foreign land by our armed forces, but right here in our own 
backyards. We also know that it is not one to be handled solely by the 
Federal government, but by a unified effort with our States and 
localities. And like our military personnel overseas, America's the 
same information to the Federal, State and local law enforcement 
officers have done a tremendous job over the last three months, under 
difficult circumstances, in protecting our nation from future threats 
of violence.
    A necessary component of these efforts has been, and must continue 
to be, timely access to specific intelligence and other information 
regarding threats to our national security. As our first line of 
defense in cities big and small, law enforcement officers across the 
country have used the information at their disposal to move quickly to 
clamp down on those whose only goal is to inflict as much damage to as 
many people as ., possible. Both before and since 11 September, many 
existing systems have been utilized to share intelligence and 
coordinate efforts against terrorist networks that operate in multiple 
locations and across jurisdictional lines. One of these, the Regional 
Information Sharing System (RISS) under the Department of Justice, is 
comprised of six regional intelligence centers that together serve over 
5,600 Federal, State and local law enforcement agencies, and 
facilitates information sharing and communication to support 
investigative and prosecution efforts. Another is the National Crime 
Information Center (NCIC), to which the Federal Bureau of Investigation 
has recently added their terrorist ``watch list,'' allowing the 
information to be accessed by State and local law enforcement twenty-
four hours a day, seven days a week. However, several barriers still 
remain which restrict the flow of other much-needed information from 
Federal agencies to law enforcement at the State and local level, and 
the types of information it is permissible to share.
    As you know, broad and timely access to information and 
intelligence is the lynchpin in the fight against terrorism. It is 
critical that State and local agencies be kept in the loop by their 
Federal counterparts. Ninety-six percent of law enforcement officers in 
the United States are employed by State and local governments--only 
four percent are Federal agents. Yet, in critical situations, Federal 
agencies citing Federal statutes restrict access to this important 
information. All too often, interagency cooperation is hampered by the 
lack of a free flow of information from Federal agencies to State and 
local departments. In the past, it has often been a one-way street, 
with State and local law enforcement providing information to their 
Federal colleagues, and getting very little if any information in 
return. We all have the same job to do, but without the same 
information about threats, our response will be inadequate.
    The importance of removing barriers to the free flow and exchange 
of information is an issue which has been highlighted by both the 
Congress and the Administration. Following 11 September, many in the 
State and local law enforcement community expressed frustration with 
the lack of information flowing down from Federal agencies, and from 
the FBI in particular. National President Young and our Executive 
Director Jim Pasco have had comprehensive discussions with Homeland 
Security Director Tom Ridge, Attorney General John Ashcroft, FBI 
Director Robert Mueller, and with other Administration officials at the 
White House on this issue. All have recognized the importance of 
providing law enforcement at the State and local level with access to 
as much information as possible, and General Ashcroft and Director 
Mueller in particular are to be commended for their efforts to improve 
the sharing of intelligence and other information with nonfederal 
agencies. They have provided timely notification to State and local law 
enforcement about potential terrorist attacks and targets. And they 
have recognized that there is room to further open lines of 
communication, and the need to continue to build better relationships 
with those throughout the law enforcement community. However, they can 
only provide as much information as current law will allow.
    It is for this reason that efforts were made by the Fraternal Order 
of Police, in close cooperation with officials of the New York City 
Police Department, to include language on this issue as part of H.R. 
3162, the ``Uniting and Strengthening America by Providing Appropriate 
Tools Required to Intercept and Obstruct Terrorism (USA PATRIOT) Act.'' 
While this effort was ultimately unsuccessful, we are gratified that 
you, Mr. Chairman, have introduced legislation which will continue the 
dialogue as to not only how information is shared in the future, but 
the type of information that can be provided to State and local law 
enforcement officers and officials. Our State and local law enforcement 
officers are the first line of defense against threats to our nation. 
They are the first responders, and because they represent the 
overwhelming majority of law enforcement in this country, they can be a 
valuable asset in the fight to improve homeland security. But only if a 
free and uninterrupted flow of information is allowed to exist among 
law enforcement agencies at every level of government. Without 
providing these men and women with as much and as specific information 
as possible about what or who to be on the look out for, we are not 
allowing them to operate at their peak efficiency in the war against 
terrorism.
    Over the last several years, we have seen dramatic increases in the 
power and speed of communications technology to disseminate enormous 
amounts of information to an even greater array of people. This is the 
same type of information explosion which is required within the law 
enforcement community if we-whether at the International, Federal, 
State or local level-are to be as effective as possible in cracking 
down on terrorists and those who support them. In our future struggles 
against terrorism, all law, enforcement agencies will require open and 
uninterrupted lines of communication, providing access to the most up-
to-date and comprehensive information available-and this is what will 
be demanded by those we are sworn to protect and serve. In conclusion, 
Mr. Chairman, let me thank you again on behalf of the membership of the 
Fraternal Order of Police for holding this important hearing, and for 
affording us the opportunity to testify here today. We look forward to 
working with you, the Members of this Subcommittee, and other 
interested parties on how best to address this issue and create safer 
futures for our children and fellow citizens.
    I would be pleased to answer any questions you may have at this 
time.

    Chairman Schumer. Thank you, Major Canterbury, for again 
excellent testimony.
    Our final witness is Chief Jon Greiner. Chief Greiner is 
chief of police in Ogden, Utah. He has come at the special 
request of Senator Hatch. It is a position he has held since 
1995. He is also the president of the Utah Chiefs of Police 
Association. He served for over 30 years in law enforcement, 
more than 20 years as an officer in the Army Reserve. In 
addition to holding two bachelors of science, Chief Greiner has 
a master in social science and public administration. He serves 
on multiple boards and Committees, including most importantly 
for our purposes today, the Utah Public Safety Olympic Command.
    Chief, like the other witnesses, your entire statement will 
be read into the record and you may proceed as you wish. Thanks 
for being here.

   STATEMENT OF JON GREINER, PRESIDENT, UTAH CHIEF OF POLICE 
                    ASSOCIATION, OGDEN, UTAH

    Mr. Greiner. Good morning, Mr. Chairman and members of the 
Senate Judiciary Committee. I appreciate the opportunity to 
appear before you today to discuss the local law enforcement 
interests and information-sharing between federal and local law 
enforcement.
    Hundreds of our own were murdered on September 11, 2001, 
along with thousands of citizens we were sworn to protect. The 
law enforcement community has been the subject of an ever-
increasing dialogue surrounding such issues as to whether 
everything was done to prevent these attacks and what if any 
number of possible reforms might be made to increase the 
capacity of all law enforcement to prevent such attacks from 
occurring in our homeland.
    We, all of us, welcome this healthy process of discussion 
and potential helpful legislation. As the designated symbol of 
legal force in our society, we stand for those who value a 
society of order and peace. It has always been a fact of life 
with us, in law enforcement, that people will kill others to 
accomplish their particular goals. Unfortunately, it took a 
tragedy of immense proportions to bring these points of needed 
discussion to the surface of public consciousness and dialogue.
    A significant discovery that came as a result of this 
tragedy was that many agencies, federal, state and local, had 
in their possession information which may have provided clues 
that the terrorist attack of September 11 of imminent and what 
the overall direction of that attack may be or take. In our 
world people do things based on motives, the real and the 
imaginary, to murder others. When we can, we try to use 
intelligence as a big part of our operational process so that 
we can calculate what may happen by knowing our enemies.
    For example, there were law enforcement agencies alerted to 
suspicious activities surrounding flight schools. There were 
also ``watch lists''<plus-minus> of U.S. immigration officials 
naming these same terrorists involved in the September 11 
attacks. Unfortunately, no one government agency possessed 
enough precursors in this terrorist formula to put together all 
the relevant ingredients and predict the attack. None of the 
individual ingredients, standing alone, was sufficient to alert 
our agencies that this event was about to take place.
    Several lessons have been learned from this experience. The 
first is that we must do a better job of information-sharing 
among all law enforcement agencies. We too often hold 
information close to our sources and do not share it with 
others. Sometimes this happens to the extent of actual refusal 
to help others when requests are made. The second is that we 
must do this without sacrificing or compromising legal 
restrictions that have been put in place. This is not to say 
there are not good reasons for secrecy when it puts lives at 
risk or may cause innocent people to have their images 
tarnished by hasty criminal investigations but there is 
enormous potential for saving the lives of innocent people if 
we can recognize our potential through information-sharing.
    I suggest learning these lessons. Criminals, terrorists and 
evil-doers spread their propaganda falsehoods in two ways. The 
first is to convince us all that evil does not exist so that we 
continue to become lambs led to slaughter or we just march 
forward as naive victims. The second is that evil is so 
prevalent that we need to destroy our basic individual freedoms 
to survive. Evil or criminals are not everywhere--quite the 
contrary. They are the minority of the population law 
enforcement deals with every day.
    A few months ago the U.S. Congress reviewed many of the 
legal barriers to efficient flow of information within various 
agencies inside the federal government and, where appropriate, 
lowered some barriers. These adjustments will help bring many 
resources to bear on reducing the possibility of future 
terrorist attacks. However, a significant component of this 
information-sharing was left out. That is the sharing of 
information with state and local enforcement counterparts. The 
FBI, which is the lead federal agency regarding terrorism, has 
but 12,000 agents. The city of New York, for instance, has more 
than three times that number of sworn officers alone. 
Nationally there are more than 650,000 sworn officers. Think of 
it as the spider web that catches the insects of terrorism as 
they fly through. The web needs to be complete to work; 
otherwise, the main pieces of the web provided by federal law 
enforcement have gaping holes for insects to utilize.
    I think the American public is asking our legislators if 
they are serious about the domestic war on terrorism and if 
they are, why should we not employ all the resources at our 
disposal to win the battles? Federal law enforcement resources 
are, quite frankly, dwarfed by existing resources in state and 
local jurisdictions. While searching out and disrupting 
international terrorism remains a primary function of the 
federal law enforcement, it is essential we take advantage of 
state and local assets.
    On October 29, 2001, FBI Director Robert Mueller reminded 
the International Chiefs of Police Organization in Toronto, 
Canada that there is no one institution with enough resources 
or expertise to defeat terrorism. He has been quoted as saying 
``It must be a joint effort across agencies, across 
jurisdictions, and across borders. State and local law 
enforcement are playing a critical role collecting information, 
running down leads and providing the kind of expertise critical 
to the effort of this magnitude and of this importance.''
    Senate Bill 1615, the Federal-Local Information Sharing 
Partnership Act of 2001, would foster better joint efforts by 
the federal, state and local law enforcement agencies in the 
war on terrorism. This bill would address the oversight in 
previous legislation recently of the information-sharing 
provisions of that legislation. It helps us all--federal, state 
and local law enforcement--if we can cooperate on a two-way 
road with a give-and-take relationship. This legislation is 
essential to ensure that state and local law enforcement 
agencies are able to work hand in hand with federal law 
enforcement agencies such as the FBI in the war on terrorism.
    On a personal note let me give you just some examples of 
over 25 years of relationships my local law enforcement agency 
has had with federal officers. Early in my career a local drug 
rip-off of a drug dealer ended with a federal wiretap and 
significant forfeitures involving DEA, FBI, IRS, U.S. Marshals 
and yes, an Ogden city police officer. Today, because of that 
experience, I have personnel assigned to a multi-county drug 
strike force with federal DEA representation. I also have 
personnel assigned to an FBI multi-jurisdictional criminal 
apprehension team, an FBI joint terrorism strike force, and 
locally a multi-jurisdictional gang task force and SWAT team. 
These same relationships are the reason two counties and 12 law 
enforcement entities in Northern Utah have gotten together to 
combine law enforcement records into a singular records 
management system in one software and in one location. This is 
the same software being used by the largest city and county in 
the state of Utah, a future collaboration being currently in 
the works.
    So why has Ogden done this? Our enemies, our criminals do 
not recognize any boundaries we put in place. Together as a 
team, we can do great things for our citizens. Individually we 
usually are only the sum of our strongest parts and resources.
    Another example if I might is the Utah Olympic Public 
Safety Command of 20 agencies which I have the privilege to sit 
on. The make-up of the command is federal, state and local law 
enforcement for the most part. For the past three years we have 
worked together with many other agencies in government and 
private partnerships to prepare the state of Utah to host the 
2002 Winter Olympics. The terrorism legislation passed recently 
serves as a barrier to our work and may compromise the citizens 
of Utah and our guests from around the world. We need to have 
the relevant information and its source that comes as a result 
of federal grand jury information, wiretapping information, 
visa information, and one that may have been overlooked in this 
endeavor is educational records of students studying in this 
country.
    In just the last 60 days, in my community, we have stopped 
citizens from former Cold War world countries taking pictures 
of housing and Olympic venues. We have talked with four Middle 
Eastern students who have rented a condominium, put one 
mattress in it and are ordering up a fast modem Internet 
service. We have talked with a reclusive Middle Eastern 
gentleman in a transient apartment complex whose neighbors 
claim he has been seen in the middle of the night meeting with 
other Middle Eastern gentlemen in remote areas of the apartment 
complex.
    These are the fine strands of the spider web that would 
normally be written off as suspicious circumstances if the 
partnership my agency has with federal and state officers did 
not exist. We treat every one of these situations as a 
potential problem. With less than 60 days to go until the 
Olympics, we cannot afford to do otherwise. After the Olympics 
the war on terrorism will still be going on and we will need to 
work at contributing whatever information and resources we 
might have to the total effort.
    Again I appreciate this opportunity to speak with you today 
and I will answer any questions you may have. Thank you.
    [The prepared statement of Chief Greiner follows.]

 Statement of Jon J. Greiner, Police Chief, President, Utah Chiefs of 
 Police Association, Member Utah Olympic Public Safety Command, Ogden 
                               City, Utah

    Good morning Mr. Chairman and members of the Senate Judiciary 
Committee. I appreciate the opportunity to appear before you today to 
discuss the local law enforcement interests in information sharing 
between federal and local law enforcement.
    Hundreds of our own were murdered on September 11, 2001, along with 
thousands of citizens we were sworn to protect. The law enforcement 
community has been the subject of an ever increasing dialogue 
surrounding such issues as to whether everything was done to prevent 
these attacks and what if any number of possible reforms might be made 
to increase the capacity of all law enforcement to prevent such attacks 
from occurring in our homeland.
    We, all of us, welcome this healthy process of discussion and 
potential helpful legislation. As the designated symbol of legal force 
in our society, we stand for those who value a society of order and 
peace. It has always been a fact of life with us, in law enforcement, 
that people will kill others to accomplish their particular goals. 
Unfortunately it took a tragedy of immense proportions to bring these 
points of needed discussion to the surface of public consciousness and 
dialogue.
    A significant discovery that came as a result of this tragedy was 
that many agencies, federal, state, and local, had in their possession 
information which may have provided clues that the terrorist attack of 
September 11<SUP>th</SUP> was imminent and what the overall direction 
of that attack may be or take. In our world people do things based on 
motives (the real and the imaginary) to murder others. When we can, we 
try to use intelligence as a big part of our operational process so we 
can calculate what may happen by knowing our enemies. For example there 
were law enforcement agencies alerted to suspicious activities 
surrounding flight schools. There were also ``watch lists'' of U.S. 
Immigration officials naming these same terrorists involved in the 
September 11<SUP>th</SUP> attacks. Unfortunately, no one government 
agency possessed enough precursors in this terrorist formula to put 
together all the relevant ingredients and predict the attack. None of 
the individual ingredients, standing alone, was sufficient to alert our 
agencies that this event was about to take place.
    Several lessons have been learned from this experience. The first 
is that we must do a better job of information sharing among all law 
enforcement agencies. We too often hold information close to our 
sources and do not share it with others. Sometimes this happens to the 
extent of actual refusal to help others when requests are made. The 
second is that we must do this without sacrificing or compromising 
legal restrictions that have been put in place. This is not to say 
there aren't good reasons for secrecy when it puts lives at risk or may 
cause innocent people to have their images tarnished by hasty criminal 
investigations, but there is enormous potential for saving the lives of 
innocent people if we can recognize our potential through information 
sharing. I suggest learning these lessons; Criminals, Terrorists and 
Evildoers spread their propaganda falsehoods in two ways. The first is 
to convince us that evil does not exist so that we continue to become 
lambs led to slaughter or we just march forward as naive victims. The 
second is that evil is so prevalent that we need to destroy our basic 
individual freedoms to survive. Evil or criminals are not everywhere, 
quite the contrary, they are the minority of the population law 
enforcement deals with every day.
    A few months ago the U.S. Congress reviewed many of the legal 
barriers to efficient flow of information within various agencies 
inside the federal government and where appropriate lowered some 
barriers. These adjustments will help bring many resources to bear on 
reducing the possibility of future terrorist attacks. However, a 
significant component of this information sharing was left out. That is 
the sharing of information with state and local law enforcement 
counterparts. The F.B.I., which is the lead federal agency regarding 
terrorism, has but 12,000 agents. The City of New York for instance has 
more than three times that number of sworn officers alone. Nationally 
there are more than 650,000 sworn police officers. Think of it as a 
spider web that catches the insects of terrorism as they fly through. 
The web needs to be complete to work, otherwise, the main pieces of the 
web provided by federal law enforcement have gapping holes for insects 
to utilize.
    I think the American public is asking our legislators if they are 
serious about the domestic war on terrorism and if they are why 
shouldn't we employ all of the resources at our disposal to win the 
battles? Federal law enforcement resources are quite frankly dwarfed by 
existing resources in state and local jurisdictions. While searching 
out and disrupting international terrorism remains a primary function 
of federal law enforcement it is essential we take advantage of state 
and local assets.
    On October 29, 2001 FBI Director Robert Mueller reminded the 
International Chiefs of Police Organization in Toronto, Canada that 
there is no one institution with enough resources or expertise to 
defeat terrorism. He has been quoted as saying ``It must be a joint 
effort across agencies, across jurisdictions, and across borders. State 
and local law enforcement are playing a critical role collecting 
information, running down leads and providing the kind of expertise 
critical to an effort of this magnitude and of this importance.''
    Senate Bill 1615, the Federal-Local Information Sharing Partnership 
Act of 2001 would foster better joint efforts by the federal, state and 
local law enforcement agencies in the war on terrorism. This bill would 
address the oversight in previous legislation, recently, of the 
information sharing provisions of that legislation. It helps us all, 
federal, state and local law enforcement if we can operate on a two-way 
road with a give and take relationship. This legislation is essential 
to ensure that state and local law enforcement agencies are able to 
work hand-in-hand with federal law enforcement agencies, such as the 
F.B.I., in the war on terrorism.
    On a personal note let me give you some examples of over twenty 
five years of relationships my local law enforcement agency has had 
with federal officers. Early in my career a local drug rip off of a 
dealer ended with a federal wire tap and significant forfeitures 
involving DEA, FBI, IRS, U.S. Marshals and yes an Ogden police officer. 
Today, because of that experience, I have personnel assigned to a multi 
county drug strike force with federal DEA representation. I also have 
personnel assigned to a FBI Multi Jurisdictional Criminal Apprehension 
Team, a FBI Joint Terrorism Strike Force and locally a multi 
jurisdiction gang task force and SWAT team. These same relationships 
are the reason two counties and twelve law enforcement in Northern Utah 
have gotten together to combine law enforcement records into a singular 
Records Management system in one software and one location. This is the 
same software being used by the largest city and county in the State of 
Utah, a future collaboration being currently in the works. So why has 
Ogden done this? Our enemies, our criminals do not recognize any 
boundaries we put in place. Together, as a team, we can do great things 
for our citizens, individually we usually are only the sum of our 
strongest parts and resources.
    Another example, if I might, is the Utah Olympic Public Safety 
Command of 20 agencies which I have the privilege to sit on. The make-
up of the command is federal, state, and local law enforcement for the 
most part. For the last three years we have worked together with many 
other agencies in government and private partnerships to prepare the 
State of Utah to host the 2002 Winter Olympics. The terrorism 
legislation passed recently serves as a barrier to our work and may 
compromise the citizens of Utah and our guests from around the world. 
We need to have the relevant information and it's source that comes as 
a result of federal grand jury information, wiretapping information, 
visa information and one that may have been looked over in this 
endeavor is educational records of students studying in this country. 
In just the last 60 days, in my community, we have stopped citizens 
from former cold war world countries taking pictures of housing and 
Olympic Venues. We have talked with four Middle Eastern students who 
have rented a condominium, put one mattress in it, and are ordering up 
a fast modem InterNet service. We have talked with a reclusive Middle 
Eastern gentleman in a transient apartment complex whose neighbors 
claim he has been seen in the middle of the night meeting with other 
Middle Eastern gentleman in remote areas of the apartment complex. 
These are the fine strands of the spider web that would normally be 
written of as suspicious circumstances if the partnership my agency has 
with federal and state officers did not exist. We treat every one of 
these situations as a potential problem, with less than 60 days to go 
until the Olympics we cannot afford to do otherwise. After the Olympics 
the war on terrorism will still be going on and we all need to work at 
contributing whatever information and resources we might have to the 
total effort.
    Again, I appreciate the opportunity to speak with you today and I 
will answer any questions you may have.
    Thank You

    Chairman Schumer. Thank you, Chief, and I want to thank all 
of the witnesses for their testimony.
    Let me begin with some questions. I want to ask each of you 
about some specific instances. This is such a long-term and 
severe problem. I remember when the former Attorney General 
Janet Reno came first before us in the House Judiciary 
Committee and she said her number one goal was to bring greater 
cooperation between federal and local law enforcement. That was 
back in 1993 and obviously we have a long way to go but it 
shows you that this problem has been with us for a long time. 
And just to flesh out the problem I would like to ask again 
about some specifics. First is to the commissioner.
    I first got involved in trying to add this legislation to 
the anti-terrorism bill when I received calls from you, 
Commissioner, and the mayor. You were quite upset about what 
had happened with the anthrax information. Can you give us the 
details as to what happened and why you were so upset about 
that?
    Mr. Kerik. I think primarily the anthrax investigation just 
sort of brought it to light. That was that there had been a 
letter received by NBC studios that the FBI had been made aware 
of directly from NBC, someone at NBC, and that letter was held 
for some time, maybe a week or so or even more than a week--I 
do not have the exact time--before we became aware of it as a 
result of other inquiries. And it was disturbing to know that 
we could have been on the issue instantly and that sort of 
brought all of this to light, that the FBI had not let us know. 
We could have responded, as we responded--as some of my 
colleagues mentioned, we respond to 911 calls for suspicious 
activity for disturbing packages, for parcels, different 
threatening items in the city 24 hours a day. That is what the 
New York City Police Department does and we could have been 
there and we could have had a handle on it much quicker.
    One of the things that concerns me is we have to look at 
the overall signature of what terrorism is and what terrorists 
do. If you will recall back in 1993, there was an attack on the 
World Trade Center. They did not succeed or at least what they 
intended to do, they did not succeed. They wanted to take down 
the buildings; they did not do that.
    People associated with those people who were responsible 
later in 1996 and 1997 again threatened the city. There was an 
investigation that revealed an attempt to take down the tunnels 
and bridges, some of the tunnels and bridges. The threats were 
thwarted. There were people arrested, still associated with 
these same people from the World Trade Center.
    Now we come to 2001, there is another attack on the World 
Trade Center, this time a devastating attack, and we find 
during the course of the investigation that there were people 
involved in this investigation or associates of that were 
related to the people back in 1993.
    We have to look at these groups. If they do not succeed the 
first time, they are going to come back and do it again. We 
have to make sure that we collect data, collect every ounce of 
information that we can and we disseminate it to the people 
that need the information the most. And as the chief mentioned 
from Utah, I have 41,000 police officers that are out there on 
a daily basis collecting information. As you know, last year we 
created the Regional Intelligence Center for fighting crime in 
the city--the FBI, the DEA, the Customs, ATF, the New York City 
Police Department all put into one central database through 
HIDTA, through New York HIDTA, and it has a major impact on 
crime reduction, which is our primary goal in New York City.
    I think we have to look at the primary goal of national 
defense and what we can do to benefit national defense, and 
that is collect information from everyone, disseminate it to 
those who need it, and with the enactment of this law you will 
not preclude anyone from stopping you from getting that 
information.
    Chairman Schumer. Let me ask you, Commissioner, did you 
have discussions after you finally found out about the NBC 
letter and anthrax with the head of the New York office of the 
FBI or people in Washington? And did they give you any good 
reason why they did not tell you immediately when they had 
heard of this?
    Mr. Kerik. Well, I am not here to criticize and I will say 
that Barry Mawn from the New York office, the assistant 
director, has been extremely cooperative. There could have been 
a lack of communication.
    Chairman Schumer. It is just so much part of their culture, 
they do not even think to tell the NYPD, even when there is a 
major scare like this? Is that fair to say?
    Mr. Kerik. I think that could be what it is.
    Chairman Schumer. Leaving Barry or leaving the New York 
specifics out of it.
    Mr. Kerik. As you mentioned earlier, there are two things 
that will preclude us from getting information--the law and the 
culture.
    Chairman Schumer. Right.
    Mr. Kerik. Culture can be changed, as you know, as in New 
York City it has been, through management accountability. 
Resolve the issue. The other thing is the law. Change the law 
and we will get the information.
    Chairman Schumer. I called Mr. Mawn, as well, and asked him 
what happened after this and I did not get much. He said well, 
it was sort of a mistake or whatever else. I mean did they give 
you any reason why they--obviously you were upset and I am sure 
you communicated with them. What was their reasoning? Did they 
think it through? Did they say well, it would be a bad idea or 
they just said well, we are the FBI, we can handle this, we do 
not need anybody else?
    Mr. Kerik. I think what happened is they sent their 
investigators and they ran it their route and just failed to 
contact us.
    Chairman Schumer. Would it not have made sense to ask the 
NYPD do you have any record of any anthrax, any traces of 
anthrax in previous years? I mean there are so many obvious 
questions that you would think you would reach out to local law 
enforcement, particularly such a sophisticated, well 
established group as NYPD.
    Mr. Kerik. Absolutely. But I say in their defense, I have 
to say post that event we put together an effort to ensure that 
all the agencies were involved. In fact, when there is, in 
fact, an anthrax scare or a threat, the teams that go out to do 
the collection of evidence and analysis and environmental 
studies consists of New York City detectives, members of the 
FBI Joint Terrorist Task Force, FBI agents, and New York City 
firefighters.
    So I have to say in the FBI's defense they have been 
extremely forthright in putting together a comprehensive plan 
for us to attack the problem.
    Chairman Schumer. So since the NBC anthrax letter you would 
say at least culture-wise. They still cannot do things legally 
and that is what our law changes but culture-wise they seem to 
be a lot better and more cooperative?
    Mr. Kerik. I think culture-wise Director Mueller and Barry 
Mawn have done a tremendous job in trying to turn things 
around.
    Chairman Schumer. Great. And so now when there is any other 
kind of danger you hear about it directly from them right away?
    Mr. Kerik. Barry Mawn calls me directly. Yes, he does.
    Chairman Schumer. Good. That is a good improvement.
    I just want to ask you about something else you mentioned, 
these same individuals you mentioned, 1993, 1997, 2001. Was 
there sharing of information between NYPD and FBI about these 
individuals over the course of those eight years? Was it 
regular? Was it routine? Was it ad hoc? Did it never occur?
    Mr. Kerik. I think the New York City Police Department is 
in a sort of different circumstance than a number of other 
agencies throughout the country. As you know, we have had a 
Joint Terrorist Task Force for more than 20 years now in New 
York City. In fact, New York City was one of the first cities 
in the country to create such a task force.
    So we have a more cooperative effort when it comes to 
terrorism because we have FBI agents and New York City police 
officers working together. And I would say the communication 
was beneficial to fighting what we had to do in New York City. 
In fact, in 1996 or 1997 when we took down the group that was 
going to do the bridges and tunnels, that was as a result of an 
investigation that eventually we had to--New York City came up 
with it and turned it over to the task force.
    Chairman Schumer. There has not been that much problem with 
the local people telling the federal authorities; it has 
generally been the other way in the past. Is that right?
    Mr. Kerik. Usually it is, yes.
    Chairman Schumer. Let me ask you, Mayor O'Malley, and I am 
sure you have talked to Mr. Norris, your police chief. Do you 
find communication, to be better since September 11 or maybe 
even since the major SNAFU with the NBC anthrax letter? You are 
a large city, not as large as New York. You were not at the 
center of these terrorist actions. Do you think it is better? 
Do you get any feeling of change? Are your folks treated a 
little better?
    Mayor O'Malley. It is slightly better. I think sometimes we 
confuse meetings with progress. We have some great meetings 
with our FBI and they are real nice people, too. It is not 
about nice. It is not about congeniality or being good 
colleagues.
    There is a little bit of change. I think one of the biggest 
changes is that Director Mueller appreciates what a huge 
cultural barrier he needs to overcome as the new leaders of 
that organization. But we really need to stay to the specifics. 
I think we all want to hear the good news so much that we tend 
not to bore down to the details, and the details are important. 
The assassination of Mayar Kahani and the information that was 
passed on by the NYPD to the federal authorities that they 
never bothered to translate that implicated people that were 
later involved in the 1993 attacks on the World Trade Center, 
that is an important detail. I am sure we had lots of meetings 
between Mayar Kahani's assassination and the 1993 attack but we 
did not follow up on it.
    The 12 individuals that I am told we want to get in touch 
with in the city of Baltimore and that we have wanted to get in 
touch with for the last 10 days, what are we waiting for? I 
mean I am glad that we are told that there are 12 individuals 
but what are we waiting for?
    The names of the 230 people on the watch list, the good 
news is we were told that that change was made about a month 
ago. The bad news is that my head of intelligence for the 
Baltimore City Police Department, a very competent guy who is 
held very accountable by Commissioner Norris, has attempted 
several times to access those names through NCIC, has been 
unsuccessful. He understands through colleagues of ours in Ann 
Arbor, Michigan that there is a special code you need to put in 
in order to access those names. He did not have it. He called 
our local FBI office. They said we are not aware of a special 
code. And in the meantime the 3,100 member of the Baltimore 
City Police Department, who stop traffic all the time as part 
of their duties, still are not able to access those names when 
they run it through to see if they have paid their Maryland 
auto insurance or their tags are up to date.
    The relay of information, the sorts of tips that are much 
more appropriately responded to by a patrol officer, the sort 
of 911 call, mysterious Ryder truck case casing the utility 
facilities, those things are not coming to us any quicker than 
they were two months ago.
    So I think that there is an improvement in that people at 
the top of the FBI are recognizing the problem but on the 
ground, Senator, and again nobody wants to appear critical at 
these times but it is not happening. We have a bad case of the 
slows. The federal government almost needs a Comstat process--
call it federal stat or something--to drive these things home 
to completion. It is not happening. I do not know exactly why 
it is happening.
    The fact that you change the law I think is an important 
step in the right direction but we should not be shy about 
asking these questions. We really need you and your colleagues 
to bore down to these details. We all want to hear the good 
news but the fact of the matter is that Americans are at risk 
if we do not get to the details of this and actually pick up 
the phone, call local law enforcement and say how is it better, 
how is it not better? And I would encourage you and your staff 
to do that and not accept the answers that--you know, there is 
a common phenomenon that affects all human beings in every 
single organization whether it is the FBI or local law 
enforcement or whatever the human organization is and that is 
people tell the boss what the boss wants to hear. And I would 
encourage you and your colleagues--
    Chairman Schumer. It does not happen in the Senate.
    Mayor O'Malley. I am sure not. But I would encourage you 
and your colleagues and your staff to call the local law 
enforcement up and see what they are saying. I think it was a 
help to Director Mueller to get that sort of input and I would 
only encourage you to keep following up.
    Chairman Schumer. I agree with you, Mr. Mayor. I would say 
had the mayor and the commissioner not talked a little bit 
about what happened after the NBC anthrax letter we would not 
have had the progress we made. But you bring a good question up 
because this is dealing with information and the Comstat 
system, which has been used in New York and I guess is used in 
other police departments, is an information system. It is 
basically giving the police--I always thought it made police 
work a little more like private sector because you had 
statistics and you had goals and you had to see if you made 
them and you could not just talk your way around the problem.
    I wanted to ask the commissioner, based on what you said, 
what do you think of doing a Comstat-type of program for this 
issue and for other issues in the FBI? Because one of the 
things that we have been concerned with here is getting the FBI 
a little leaner and meaner than they have been.
    Mr. Kerik. One of the things that the mayor and I 
recommended early on was that either through the Office of 
Homeland Security or through the FBI that Director Mueller 
appoint someone at the highest levels, directly reportable to 
him or directly reportable to Tom Ridge, that would create a 
Comstat mechanism to collect this intelligence and to ensure 
that it went out to the appropriate parties.
    Chairman Schumer. That is a great idea.
    Mr. Kerik. We called for that when the mayor and I 
testified earlier before Congress. We are very much in favor of 
it. I think it would be extremely beneficial and it has proven 
around this country that it works. Whether it is crime 
statistics or internal intelligence like the Regional 
Intelligence Center in New York City now, it works, and all 
they have to do is create the position, have someone oversee 
it, and then hold people accountable to make sure that they are 
doing what they are supposed to do.
    Chairman Schumer. Could not the FBI use a whole Comstat 
system?
    Mr. Kerik. Absolutely.
    Chairman Schumer. Not just for this but for the whole way 
that they operate?
    Mr. Kerik. Absolutely.
    Chairman Schumer. You have given us another hearing's worth 
of information here but that is something I think makes a great 
deal of sense, having followed it in NYPD.
    Mayor O'Malley. Mr. Chairman?
    Chairman Schumer. Go ahead, Mr. Mayor.
    Mayor O'Malley. We stole their good idea and do it across 
the board in all the cities--
    Chairman Schumer. You would recommend that the FBI 
institute a Comstat-type system?
    Mayor O'Malley. The important thing is to drive through the 
completion of the task and that is what does not happen.
    Chairman Schumer. Right.
    Mayor O'Malley. We like to wrap ourselves in the warm 
blanket feeling that if we pass it on to the FBI or the federal 
government that everything has been completed and it is done 
and the numbers, the sheer numbers defy that.
    Chairman Schumer. Thanks.
    Chief Greiner, you had said a number of interesting things. 
How is the cooperation? You mentioned there is a task force in 
Utah. We have the Olympics, as you mentioned, in less than 60 
days. A, has the cooperation been pretty good all along? Has it 
gotten better? Are you confident that when the federal 
government learns of some possible problem with the Utah 
Olympics that the local law enforcement on the ground in Utah 
will learn it, too?
    Mr. Greiner. Yes, sir, I am. Because of the Olympics I 
think there has been an increased awareness of information-
sharing. We have huge geographical problems out in Utah, not 
the population issues that are here on the East Coast, but the 
Olympics has brought to the forefront a new discussion level 
amongst all law enforcement along the Wasatch front and as a 
result of that we are very attuned to everybody's needs.
    The problem I see is that in the collection of the data who 
gets out and does the investigation of it in a timely manner? 
It is not uncommon to have real intelligence come to us and see 
it also on the front page of USA Today within the same half 
hour. So USA Today had the information at least before print 
time, which is before law enforcement got it.
    So the timeliness is still an issue but the cooperation 
level, at least for the Olympics, has been superb.
    Chairman Schumer. So it is that you are not getting it 
quickly enough but you are getting it?
    Mr. Greiner. Yes, sir.
    Chairman Schumer. Although you may read about it in the 
newspaper first.
    Mr. Greiner. Yes, sir.
    Chairman Schumer. Okay, you mentioned a couple of other 
things I want to mention. Flight schools, could you just 
elaborate on that a little bit? I was intrigued by what you 
said but I was not clear from your testimony. Is this the 
federal government had information about who was attending 
flight schools and did not share it with you, that you had it 
and did not get cooperation when you dealt with the feds? Just 
explain that a little bit.
    Mr. Greiner. There is both. I have read and heard from at 
least some federal sources that there was information about 
these flight schools that was not passed on, at least from the 
jurisdictions where the flight schools exited. And even in my 
own jurisdiction we have an airport, a regional airport, and 
one of the flight services was bought by a Middle Eastern 
gentleman who lives in Park City and he has bought up two or 
three of the flight service schools across the state of Utah, 
information that we had that was never shared with anybody and 
did not come to the forefront until the September 11 tragedies.
    Chairman Schumer. Now it has been better?
    Mr. Greiner. Now it has been better.
    Chairman Schumer. Is everything okay with those flight 
schools?
    Mr. Greiner. So far.
    Chairman Schumer. You mentioned another issue, which is you 
talked about our legislation might be missing something about 
information about students on visas, nonAmerican citizens on 
visas. Do you want to talk about that a little bit?
    Mr. Greiner. Yes, sir, and this comes to light just this 
past week. Part of the watch list that came out from the FBI 
contains several names. The unfortunate part of that is that 
those names are as common as John Smith or John Brown in our 
culture. So as you check the register, the database of our 
community, and you find those names, a number of times those 
individuals are students at our local university. The 
university police department has no database retrieval system 
and anything that happens off-campus is in our database 
retrieval system. So even going and finding out what there may 
be requires a lot of extra effort, to the point that even the 
president of the university asks why local police are coming on 
his campus to talk to his students when it is only in response 
to questions being offered from the federal people.
    I think there is a wealth of information there about 
students who are here maybe not with all the most desirable of 
traits or desirable of motives and we need to make sure that we 
understand all the people in our community and not leave that 
sector of them out because I think that student visas are one 
of those areas that are grossly misused and abused in our 
country.
    Chairman Schumer. My guess is if you tied in the university 
to this a little bit more not only would you find better 
information but you might do it in a nicer way.
    Mr. Greiner. Yes, sir.
    Chairman Schumer. If the university people say we know this 
person, they seem to be fine, et cetera, it is a lot better 
than having local police go knock on their door and create a 
whole fuss on the campus, too. That would make sense.
    Mr. Greiner. Yes, sir.
    Chairman Schumer. Let me ask each of you and let me start 
with Mr. Canterbury, when you bring up your complaints to 
federal law enforcement, when your members do, Major 
Canterbury, and you say look, we need more cooperation, do they 
admit that it is a problem now, more so than before? Or do they 
say you are getting all the information that we can afford to 
give you? Do the indicate the law is more the problem rather 
than the culture? Just tell us a little bit about that since 
you represent people all across the country.
    Mr. Canterbury. I think since September 11 the Fraternal 
Order of Police has had good cooperation with the FBI director 
and Attorney General Ashcroft and I think that we have had a 
lot of input and we have been able to discuss it, but I believe 
that the law is more the excuse. Obviously the change in the 
law was important but the culture needs to change.
    Small town America, which is where I am from, the contact 
with the FBI is we need your information; we will see you 
later. It is a cultural thing. It is not necessarily--as the 
mayor said, we have a lot of meetings and they are nice 
meetings but the exchange of information is very one-sided. I 
think that obviously in the last especially two months there 
has been a lot of input allowed, a lot of input requested, and 
where that goes, I think time will tell but I think a change in 
the law is extremely important but the change in the culture is 
even more important.
    Chairman Schumer. And I think it was the mayor who 
mentioned that at the top levels there is a lot of cooperation 
but getting it down to the lower levels is tough. That is why 
Comstat is probably a good idea because that will measure how 
well it is being done, as opposed to the top guys saying yes, 
do it, and then the lower level guys, you never know whether 
they are or are not. What do you think of that idea?
    Mr. Canterbury. I think one of the most important things 
that I heard today was what the mayor said about Timothy 
McVeigh. The information getting to the front-line troops that 
are actually making the traffic stops, and I think the chief 
talked about the spider web effect, it is the 650,000 rank and 
file officers that are actually going to make those contacts? 
If the watch list information does not come up on the traffic 
stop or it does not come up on the field interview or the 
contact with the domestic dispute, then filtering back up is 
much harder, but the front-line troops are the people that need 
the ability to get the information because they are the ones 
making the daily contacts. And we are very concerned about 
that.
    Chairman Schumer. Commissioner or Mayor, when you bring 
this up to people at the top level do they acknowledge it is a 
problem and do they seem to reflect it is more cultural or 
legal?
    Mayor O'Malley. At first, in the wake of the attacks, we 
got from the local people a lot of legal and I think they did 
not have much information themselves. I picked up the phone and 
actually called Director Mueller about three weeks after the 
attacks and to his credit, he called me back. At the time he 
said, ``How come you are the only city in America that has this 
problem?'' And to his credit, after we had a very frank 
discussion, he then started reaching out and calling local law 
enforcement and I think really wants to fix this. Up until that 
time I do not think he fully appreciated the very, very 
dangerous gap that exists.
    You know, the analogy with the spider web I think is a good 
one but if the information is not there, the insects are not 
going to get stuck to the web. They are going to be given a 
warning ticket and waved goodbye in this time of racial 
profiling.
    Chairman Schumer. Commissioner?
    Mr. Kerik. Like I said earlier, Barry Mawn and the city 
office has been extremely cooperative. But the mayor brings up 
a good point and this is something I think everyone should 
focus on. Does the Bureau have the information that they need? 
Are they getting information from the CIA, the Defense 
Intelligence Agency, from the INS, immigration? Are their 
databases linked? Are the watch lists linked to the databases 
from INS and the Bureau and Customs? Is there money being 
funded through narcotics trafficking? Is DEA's database 
involved? I think we also have to look at that, too.
    If you think about a Comstat process and a process of 
intelligence accountability, this is a war unlike any other war 
we have in this country. This war is really jeopardizing our 
national security. It has to be fought from the inside at the 
lowest levels up and out. And I think the culture will change 
if the order is given from the top and people are held 
accountable but in doing that we have to make sure that it is 
really broadly encompassing because at the end of the day 
during the course of talking to the Bureau, even if they are 
giving us information, we have to know what they have because 
more importantly, we have to know what they do not have. What 
they do not have, those 650,000 cops that patrol the streets 
every day, I can almost assure you, will find or have. That is 
the bottom line.
    Chairman Schumer. As you say, I think the vice president 
has said this, that this is the first war where more people 
will die on the home front than on the battlefront. That means 
that the people that you command in one way or represent are 
front-line troops and cannot be treated in a secondary way that 
well, we do not need you, you are not useful to us, et cetera. 
And I think that is really important.
    Anyone have any final words that they wish to give us? The 
hearing has been very helpful in fleshing all of this out and 
helping us move our legislation, which we are going to move 
quickly.
    As you say, Commissioner, this is not just the problem of 
federal to local law enforcement. Federal agencies did not 
share any of this until we passed our bill and that culture has 
got to change, too, but I have a feeling the culture is more 
imbedded when it goes from federal to local and that has to 
change. We are taking steps to do it and your testimony will 
help us get there.
    Mr. Kerik. Thank you.
    Chairman Schumer. I want to thank you. Mr. Mayor?
    Mayor O'Malley. I would like to nominate Commissioner Kerik 
to the new role of director of federal Comstat.
    Chairman Schumer. He has a few other jobs. I do not know if 
he would take this one.
    But thank you. I thank each of the witnesses and all of the 
staff who worked hard on the hearing. We are adjourned.
    [Whereupon, at 11:18 a.m., the Subcommittee was adjourned.]
    [Submissions for the record follow.]

                       SUBMISSIONS FOR THE RECORD

Statement of Hon. Charles E. Grassley, a U.S. Senator from the State of 
                                  Iowa

    Mr. Chairman, I want to thank you for holding this hearing to 
highlight the sharing of information between federal, state, and local 
law enforcement and intelligence agencies. As many of you know, I 
strongly believe in the importance and necessity for federal, state and 
local agencies to develop protocols for improved sharing of 
intelligence and other information.
    Local police agencies play a significant role in preventing and 
responding to terrorism. They make a valuable contribution to our 
Nation's anti-terrorism efforts by building on their community policing 
networks to exchange information with citizens and gather intelligence. 
Federal law enforcement can't do it alone. Local police have direct and 
crucial information about individuals living in their communities and 
are especially qualified to assess community concerns and fears 
necessary for effective intelligence gathering. We must trust them to 
maintain the confidentiality of sensitive information and to allow them 
to be equal partners in any collaborative efforts if those strategies 
are to be effective.
    Last month, I conducted two working meetings in Des Moines and 
Cedar Rapids on the issue of first responder preparedness. The purpose 
of these meetings was to have an open dialogue with Iowa first 
responders about their mission in a crisis and how prepared they feel 
they are to carry out that mission.
    One of the concerns expressed privately to my staff was that the 
first responders need increased information sharing with federal 
investigative and intelligence agencies. These participants cited the 
lack of information sharing as the key impediment to investigative and 
operational efficiency, and that it could ultimately effect the 
successful and timely detection and resolution of a potential terrorist 
incident. These first responders identified the management of the FBI 
as the probable source of the bottleneck in the flow of information 
between federal agencies and local law enforcement.
    For many years, I've been talking about the FBI's refusal to share 
information and the negative effect this has on law enforcement's 
overall effectiveness. This pattern of information hoarding is deeply 
rooted within the organizational culture of the Bureau. To complicate 
matters further, the FBI is structured in such a way as to restrict the 
flow of information to those that need it the most, the first 
responders, those men and women who are at the front lines of our 
homeland defense. The investigation following the September 
11<SUP>th</SUP> attacks has proven how critical this first line of 
defense is in our nation's battle against terrorism.
    To be sure, there are legitimate reasons for segregating certain 
information, such as the protection of sources and methods and the 
classification of sensitive information. But these reasons are often 
used as a smokescreen to hoard information because it simply serves the 
Bureau's interests, which unfortunately are at times focused more on 
public relations than on the needs of the case. Ask any law enforcement 
professional in state, local or federal government, and they will tell 
you a number of stories of FBI officials claiming sole credit for 
multi-jurisdictional investigations. Or, as is frequently the case, 
information is withheld in order to cover-up an embarrassing blunder.
    Senator Schumer has introduced a bill to allow the voluntary 
sharing of information regarding future terrorist attacks. This bill to 
remove some of the statutory barriers to information sharing is a good 
start, but for real information sharing to occur, there must be a sea 
change in the management of the FBI. Fortunately, the Justice 
Department has recently revealed their reorganization plan for the FBI 
and it does address the issue of information sharing. I hope this plan 
is not just ``window dressing''. Furthermore, this Committee must 
continue our vigilant oversight of the FBI to insure that state and 
local police are receiving the information they need to effectively 
prevent terrorism.
    Mr. Chairman, again I want to thank you for holding a hearing on an 
issue that is critical to effective law enforcement.

                                <F-dash>

Statement of Hon. Orrin G. Hatch, a U.S. Senator from the State of Utah

    Mr. Chairman, in the wake of the September 11 terrorist attacks, 
the law enforcement community has been the subject of an intense level 
of scrutiny, to determine, first, whether everything possible was done 
to prevent the attacks, and second, what, if any, reforms can now be 
made to increase the capability of law enforcement to prevent such 
attacks in the future. This analysis is a healthy process, and one that 
has been welcomed by virtually all of our law enforcement agencies, 
although it is unfortunate that it took a tragedy of such magnitude to 
bring these matters to the forefront of the public consciousness.
    One of the most important revelations that has resulted from this 
period of scrutiny, is the realization that, prior to the September 
11<SUP>th</SUP> attacks, government agencies within the United States 
already had in their possession clues that a terrorist attack was 
imminent, and clues as to the form that such an attack might take. It 
has become apparent, for instance, that law enforcement agencies had 
been alerted to suspicious activities at flight schools around the 
country. We have also learned that many of the terrorists who 
perpetrated the September 11<SUP>th</SUP> attacks were on ``watch 
lists'' compiled by U.S. immigration authorities prior to September 
11<SUP>th</SUP>.
    Unfortunately, no one governmental agency possessed enough of these 
clues to piece together a sufficiently clear outline of the terrorists' 
plans to enable us to predict and prevent the September 11<SUP>th</SUP> 
incidents. None of the isolated pieces of information was sufficient, 
standing alone, to set off warning bells that an attack was about to 
take place.
    Accordingly, one of the first lessons we have learned from the 
September 11<SUP>th</SUP> attacks is that we must do a better job of 
encouraging information sharing between and among our law enforcement 
institutions.
    There are two dimensions to the problem of sharing criminal 
investigatory information between governmental agencies. First, there 
is a culture, particularly within our law enforcement institutions, to 
hold information close, and to refuse to disseminate it to other 
governmental agencies. Second, there are often legal restrictions as to 
how and when information may be lawfully disseminated.
    Often, there are good reasons for both the legal restrictions on 
information sharing and the culture of informational 
compartmentalization. Investigations may be compromised, and lives put 
at risk, if investigatory information is spread too liberally. In 
addition, innocent people, who may subsequently be cleared of all 
wrongdoing, may have their reputations tarnished by premature 
disclosure that they are the subject of a criminal investigation.
    While we must remain mindful of these concerns, we must also 
recognize the enormous potential that sharing information between and 
among our law enforcement institutions has to increase the probability 
that terrorist activity may be identified and prevented. We must look 
for ways to encourage such sharing in circumstances where the benefits 
to our society outweigh the costs.
    This was one of the major concerns motivating the passage of the 
Anti-terrorism legislation earlier this year. In that legislation, 
Congress reviewed many of the legal burners to the efficient flow of 
information within various agencies of the federal government and, 
where appropriate, lowered those burners. These changes are key reforms 
that will unquestionably help the federal government to bring all its 
resources to bear on identifying and stopping terrorist activities.
    One area that was neglected by the Anti-terrorism legislation, 
however, was the sharing of information between federal law enforcement 
authorities and their state and local counterparts. If we are truly 
serious in our domestic war on terrorism, then it is essential that we 
employ all the resources at our disposal to win that war. Our federal 
law enforcement resources are simply dwarfed by the resources available 
in state and local jurisdictions. While disrupting international 
terrorism efforts will remain primarily a function of the federal 
government, it is essential that we take advantage of all the help that 
state and local authorities can provide.
    As FBI Director Robert Mueller recently stated, ``We all realize, 
no one institution has enough resources or expertise to defeat 
terrorism. It must be a joint effort across agencies, across 
jurisdictions, and across borders. State and local law enforcement are 
playing a critical role collecting information, running down leads, and 
providing the kind of expertise critical to an effort of this magnitude 
and of this importance.''
    S. 1615, the Federal-Local Information Sharing Partnership Act of 
2001 would foster joint efforts by the federal government and state and 
local law enforcement. The,bill would address the oversight in last 
month's legislation, by extending the information sharing provisions 
contained in that legislation to cover, not just the federal 
government, but state and local law enforcement agencies as well. This 
legislation is essential to ensure that state and local law enforcement 
agencies are able to work hand-in-hand with federal law enforcement 
agencies such as the FBI in the war against terrorism.
    In conclusion, I would like to point out that in my home state of 
Utah we are in the process of pioneering cooperative law enforcement 
efforts among federal, state, and local law enforcement institutions. 
As we gear up for the Winter Olympics in 2002, federal, state, and 
local law enforcement has come together, to an unprecedented degree, to 
provide security for that event. I would like to welcome my good 
friend, Jon Greiner to today's hearing. Jon is the Chief of Police in 
Ogden Utah, and in that capacity he has been in the forefront of 
establishing these inventive relationships. I look forward to hearing 
his testimony, and that of all the fine witnesses that have been 
assembled for today's hearing.

                                <F-dash>

 Statement of Hon. Patrick J. Leahy, a U.S. Senator from the State of 
                                Vermont

    I commend Senator Schumer for holding this hearing on the need for 
and benefits of sharing information with local law enforcement. Local 
law enforcement are the first responders at the scene of crises and 
have to determine almost instantaneously whether the cause was an 
accident, a crime or, worse, an organized terrorist attack. To make 
these determinations and to know how best to respond, they should and 
must have access to the information necessary to evaluate these 
situations accurately and expeditiously.
    I have co-sponsored with Senator Schumer, Senator Clinton, and 
Senator Hatch S. 1615, the ``Federal-Local Information Sharing 
Partnership Act of 2001,'' which would provide guidelines for such 
sharing to take place. I originally supported this legislation during 
the final deliberations between the Senate and House on the USA PATRIOT 
Act. While the Senate leadership favored adding these provisions to the 
bill, the House leadership wanted to defer consideration on procedural 
grounds without prejudice to the merits.
    S. 1615 authorizes the sharing of certain foreign intelligence 
information with local law enforcement personnel. The bill resolves the 
question of whether legal barriers prevent the FBI and other federal 
law enforcement authorities from disclosing information to state and 
local law enforcement agencies when necessary and appropriate to ensure 
an effective response to terrorist threats. The Committee will review 
the details of the bill carefully so that it achieves this goal without 
risking unintended consequences.
    On the larger issues of cooperation I am pleased that FBI Director 
Robert Mueller announced last week the creation of a new position of 
Assistant Director for Law Enforcement Coordination to be filled by an 
experienced representative of local law enforcement. This new position 
will report directly to Director Mueller. To his credit, the Director 
Mueller is aware of the problem of the FBI not effectively working with 
other law enforcement officers. He told one law enforcement group in 
late October that offers of help from police have in some cases been 
wrongly turned down, and called that ``unacceptable.'' He has promised 
that the FBI will change the way it works with local police.
    I have spoken to Mayor O'Malley about this issue and thank him for 
the personal attention and commitment he has given to ensuring that 
local law enforcement has the information and tools needed to perform 
effectively in protecting our public safety.
    There is, however, a separate issue of coordination between 
federal, state, and local law enforcement under the Justice 
Department's new joint terrorism task forces that are led by the United 
States Attorneys' offices rather than FBI field offices.
    For example, former FBI Associate Deputy Director Oliver B. (Buck) 
Revell has raised important questions in a letter, dated December 5, 
2001, to the Washington Post that Senator Hatch quoted in part at this 
Committee's December 7' hearing with the Attorney General. Mr. Revell 
expresses concern about the Attorney General's action of placing the 
U.S. Attorneys in charge of the joint terrorism task forces as ``both 
unproductive and undermines the effectiveness of the FBI's relationship 
with state and local authorities.'' Mr. Revell states that several 
police chiefs have advised him ``that they are not comfortable in such 
a relationship led by U.S. Attorneys.'' He is concerned that the U.S. 
Attorneys will not ``have the investigative resources and analytical 
capabilities to execute this program.'' Mr. Revell concludes, ``Now is 
not the time to undermine the capabilities of the nation's primary 
agency responsible for the prevention and investigation of terrorist 
activity.''
    The Committee will look into these and other issues raised by the 
new joint terrorism task force structure. Today marks three months 
after the terrible terrorist attacks on the World Trade Center, the 
Pentagon and our airlines. I know I share the gratitude of the Nation 
for the valiant work of Commissioner Kerik and the New York City Police 
and the other police officers around the country, including the Capitol 
Police, who have been working longer hours under enormously stressful 
conditions to keep us safe. I welcome all the witnesses here today.
    Senator Schumer and Senator Clinton worked tirelessly during 
consideration of the USA PATRIOT Act to back up the FBI Director's 
words and good intentions with legislation, and expressly authorize 
information sharing by the FBI with State and local law enforcement 
officers, when they have a need to know the information to perform 
their public safety mission in response to terrorist threats. I support 
this goal.

                                <F-dash>

  Statement of Hon. Strom Thurmond, a U.S. Senator from the State of 
                             South Carolina

    Mr. Chairman:
    I am pleased that you are holding this hearing on such a timely 
issue, the sharing of information with local law enforcement. Each day, 
our local law enforcement personnel are on the front lines in the war 
against terrorism, and we should develop sensible policies for 
coordinating the efforts of Federal and local officials. In order to 
protect our Nation from future terrorist attacks, we must provide for 
the easy exchange of information so that local law enforcement will be 
prepared to act on a moment's notice. With the appropriate information 
sharing, our various law enforcement agencies will be encouraged to 
work as one team, united in the goal of ensuring the safety of our 
citizens.
    The USA PATRIOT Act provided some much-needed reforms for the 
sharing of information on the Federal level. Before the law took 
effect, law enforcement officials were largely prohibited from passing 
critical information to the intelligence community. The Act expanded 
the sharing of this information. For example, information derived from 
grand juries and from criminal wiretaps may now be passed to 
intelligence officials. This cooperation among the different agencies 
of the Federal government ensures that we are not fighting terrorism 
with one hand tied behind our back.
    We should not stop there. We should explore further changes that 
may be necessary, including the sharing of information with local law 
enforcement. Local police make up the vast majority of law enforcement 
officers in this country. According to Chuck Canterbury of the 
Fraternal Order of Police, 960 of law enforcement officers are employed 
by state and local governments while only 4% are Federal employees. 
This statistic is a staggering reminder that reforms on the Federal 
level do not necessarily reach the overwhelming majority of law 
enforcement officers.
    One way in which we can enhance information sharing is to make 
further use of an existing law enforcement tool, the Regional 
Information Sharing System (RISS). RISS consists of a group of six 
regional information centers and is funded by grants from the 
Department of Justice. One of these information centers is the Regional 
Organized Crime Information Center (ROCIC), which serves as an 
important information-sharing tool for law enforcement in the state of 
South Carolina.
    Local law enforcement officers contribute to the KISS database in 
order to facilitate the exchange of information between jurisdictions. 
In addition, RISS incorporates other elements that allow state and 
local law enforcement officers to confer with one another. For example, 
the system utilizes encrypted email and bulletin boards that provide 
secure forums for communication.
    Although existing agreements allow the Federal government to use 
RISS to share some information with local law enforcement, this sharing 
of information is very limited due to existing laws and policies. Not 
only should we examine statutory changes that would maximize the 
ability of Federal officers to share critical information with local 
police, but we should also seek to change the attitudes and behaviors 
of the law enforcement community. Local police throughout the country 
report that the flow of information is not a two-way street. Local 
authorities often pass information to Federal authorities, but 
information does not always flow from Federal officers to local 
officers, even when allowed under current law.
    Mr. Chairman, I appreciate your interest in the further improvement 
of the reforms incorporated in the USA PATRIOT Act. We should carefully 
consider your proposals. While we should ensure that information is not 
passed in an easy or uncontrolled manner, we must remember that law 
enforcement is more effective if it presents a united front in the war 
against terrorism. There needs to be a fluid exchange of information, 
allowing local law enforcement the ability to respond quickly to 
terrorist threats. That is why I am interested in the idea of giving 
Federal authorities further flexibility in passing information to local 
officials. I look forward to hearing the testimony of today's 
witnesses.

                           <greek-d>
</pre></body></html>
